appendix

"A"

ftp?* '‘a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14393-J

ANTWAN R. CRAY,
Petitioner - Appellant,
versus
WARDEN, FCC COLEMAN - MEDIUM,
Respondent - Appellee.

Appeal from the United States District Court
for the Middle District of Florida

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Antwan R. Cray has failed to pay the filing and
docketing fees to the district court within the time fixed by the rules., effective April 14, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Davina C Bumey-Smith, J, Deputy Clerk
FOR THE COURT - BY DIRECTION

*L

-A- P P E^J—D—I—X-

"B"

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14393-J
ANTWANR. CRAY,
Petitioner-Appellant,
versus
WARDEN, FCC COLEMAN - MEDIUM,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Antwan Cray is a federal prisoner serving a 180-month sentence for being a felon in
possession of a firearm. He filed a 28 U.S.C. § 2255 motion, which was denied in 2016. Cray
subsequently filed this 28 U.S.C. § 2241 petition, claiming that he was actually innocent, and his
sentence was unconstitutional, in light of Rehaif v. United States, 139 S.Ct 2191, 2200 (2019)
(holding that a conviction for being a feion in possession of a firearm requires that the individual
know that he possessed the firearm and was in a category of persons barred from possessing it).
The district court dismissed Cray’s § 2241 petition because he failed to satisfy the
requirements of the saving clause of § 2255(e), as it was clear that his claim fell within the realm
of § 2255. Cray appealed, and the district court denied him in forma pauperis (“IFP”) status on
appeal, which he now seeks in this Court.
As an initial matter, because Cray is a federal prisoner, he does not need a certificate of

appealability to appeal the district court’s dismissal of his § 2241 petition. See Sawyer v. Holder,
326 F.3d 1363, 1364 n.3 (11th Gir. 2003). However, because he seeks IFP status, his appeal is
subject to a frivolity determination. See 28 U.S.C. § 1915(e)(2)(B). “[A]n action is frivolous if it
Is without arguable merit either in law or fact.” Napier v. Preslicka, 314 F.3d 528,531 (11th Cir.
2002) (quotation omitted).
Generally, a federal prisoner collaterally attacks the validity of his federal conviction and
sentence by filing a motion to vacate under § 2255. See Sawyer, 326 F.3d at 1365. However, a
provision of § 2255, known as the “saving clause,” permits a federal prisoner, under limited
circumstances, to file a habeas petition pursuant to §2241. See 2Z U.S.C. §§ 2241(a), 2255(e).
Under the saving clause of § 2255(e), a federal prisoner may bring a habeas petition under
§ 2241 if‘‘the remedy by [§ 2255] motion is inadequate or ineffective to test the legality of his
detention.” 28 U.S.C. § 2255(e). This Coiuthas concluded that the saving clause permits a federal
prisoner to proceed under § 2241 only when : (1) “challenging] the execution of hi s sentence, such
as the deprivation of good-time credits or parole determinations”; (2) “the sentencing court [was]
unavailable,” such as when the sentencing court itself has been dissolved; or (3) “practical
considerations (such as multiple Sentencing courts) might prevent a petitioner from filing a motion
to vacate.” McCarthan v. Dir. of Goodwill Indus.-Suncoast, Inc., 851 F.3d 1076,1092-93 (11th
Cir. 2017) (en banc). This Court further held that, where the petitioner attacked his sentence based
on a cognizable claim that Could have been brought in a § 2255 motion to vacate, the § 2255
remedial vehicle was adequate and effective to test his claim, even if circuit precedent or a
procedural bar would have foreclosed it. Id, at 1079-81,1085-86.
Here, Cray challenged the validity of his sentence, rather than the execution of his sentence,
and, thus, his claim should have been brought in a § 2255 motion. See Sawyer, 326 F.3d at 1365.
2

Moreover, § 2255(e)!s saving clause did not apply because Gray could not show that § 2255 was
inadequate or ineffective to test the legality of his sentence. Even if the procedural bar against
successive § 2255 motions would have foreclosed Cray's claim, it nevertheless could have been
raised in a § 2255 motion, and, therefore, § 2255 was an adequate remedial vehicle.

See

McCarthan, 851 F.3d at 1079-81, 1085-86; see also la re Palacios, 931 F.3d 1314, 1315 (11th
Cir. 2019) (denying application to file a successive §2255 motion because Rehaif did not
announce a new rule of Constitutional law, and the decision is not retroactive in collateral
proceedings). Accordingly, the district court properly dismissed Cray’s §2241 petition, any
argument to the contrary would be frivolous, and his IFP motion is DENIED.

3

Case 5:19-cv-00533-MMH-PRL Document 9 Filed 10/24/19 Page 1 of 2 PagelD 37

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
ANTWAN R. CRAY,
Petitioner,
v.

Case No: 5:19-cv-533-Oc-34PRL

WARDEN, FCC COLEMAN MEDIUM
Respondent.

JUDGMENT IN A CIVIL CASE
Decision by Court. This action came before the Court and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
Pursuant to the Court's order entered on October 22,2019, the petition is dismissed for lack
of jurisdiction and the case is dismissed with prejudice.

ELIZABETH M. WARREN, CLERK
s/H. Iovino, Deputy Clerk

Case 5:19- cv-00533-MMH-PRL Document 9 Filed 10/24/19 Page 2 of 2 PagelD 38
CIVIL APPEALS JURISDICTION CHECKLIST
1.

2.

Appealable Orders: Courts of Appeals have jurisdiction conferred and strictly limited by statute:

(a)

Appeals from final orders pursuant to 28 U.S.C. Section 1291: Only final orders and judgments of district courts, or final orders
of bankruptcy courts which have been appealed to and fully resolved by a district court under 28 U.S.C. Section 158, generally are
appealable. A final decision is one that “ends the litigation on the merits and leaves nothing for the court to do but execute the
judgment.” Pitney Bowes. Inc. V. Mestre. 701 F.2d 1365, 1368 (11th Cir. 1983). A magistrate judge’s report and recommendation
is not final and appealable until judgment thereon is entered by a district court judge. 28 U.S.C. Section 636(c).

(b)

In cases involving multiple parties or multiple claims, a judgment as to fewer than all parties or all claims is not a final,
appealable decision unless the district court has certified the judgment for immediate review under Fed.R.Civ.P. 54(b), Williams
v. Bishop. 732 F.2d 885, 885-86 (11th Cir. 1984). A judgment which resolves all issues except matters, such as attorneys’ fees and
costs, that are collateral to the merits, is immediately appealable. Budinich v. Becton Dickinson & Co.. 486 U.S. 196, 201, 108 S.
Ct. 1717, 1721-22, 100 L.Ed.2d 178 119881: LaChance v. Duffy’s Draft House. Inc.. 146F.3d832, 837 (11th Cir. 1998).

(C)

Appeals pursuant to 28 U.S.C. Section 1292(a): Appeals are permitted from orders “granting, continuing, modifying, refusing
or dissolving injunctions or refusing to dissolve or modify injunctions...” and from “[ijnterlocutory decrees...determining the rights
and liabilities of parties to admiralty cases in which appeals from final decrees are allowed.” Interlocutory appeals from orders
denying temporary restraining orders are not permitted.

(d)

Appeals pursuant to 28 U.S.C. Section 1292(b) and Fed.R.App.P.5: The certification specified in 28 U.S.C. Section 1292(b)
must be obtained before a petition for permission to appeal is filed in the Court of Appeals. The district court’s denial of a motion
for certification is not itself appealable.

(e)

Appeals pursuant to judicially created exceptions to the finality rule: Limited exceptions are discussed in cases including, but
not limited to: Cohen V. Beneficial Indus. Loan Corp.. 337 U.S. 541,546,69 S.Ct. 1221, 1225-26, 93 L.Ed. 1528 (1949); Atlantic
Fed. Say, & Loan Ass’n v. Blythe Eastman Paine Webber. Inc.. 890 F. 2d 371, 376 (11th Cir. 1989); Gillespie v. United States
Steel Corp.. 379 U.S. 148, 157, 85 S. Ct. 308,312, 13 L.Ed.2d 199(1964).

Time for Filing; The timely filing of a notice of appeal is mandatory and jurisdictional. Rinaldo v. Corbett. 256 F.3d 1276, 1278 (11th Cir.
2001). In civil cases, Fed.R.App.P.4(a) and (c) set the following time limits:

(a)

Fed.R.App.P. 4(a)(1): A notice of appeal in compliance with the requirements set forth in Fed.R.App.P. 3 must be filed in the
district court within 30 days after the entry of the order or judgment appealed from. However, if the United States or an officer or
agency thereof is a party, the notice of appeal must be filed in the district court within 60 days after such entry. THE NOTICE
MUST BE RECEIVED AND FILED IN THE DISTRICT COURT NO LATER THAN THE LAST DAY OF THE APPEAL
PERIOD - no additional days are provided for mailing. Special filing provisions for inmates are discussed below.

(b)

Fed.R.App.P. 4(a)(3): “If one party timely files a notice of appeal, any other party may file a notice of appeal within 14 days after
the date when the first notice was filed, or within the time otherwise prescribed by this Rule 4(a), whichever period ends later.”

(c)

Fed.R.App.P.4(a)(4): If any party makes a timely motion in the district court under the Federal Rules of Civil Procedure of a type
specified in this rule, the time for appeal for all parties runs from the date of entry of the order disposing of the last such timely
filed motion.

(d)

Fed.R.App.P.4(a)(5) and 4(a)(6): Under certain limited circumstances, the district court may extend the time to file a notice of
appeal. Under Rule 4(a)(5), the time may be extended if a motion for an extension is filed within 30 days after expiration of the
time otherwise provided to file a notice of appeal, upon a showing of excusable neglect or good cause. Under Rule 4(a)(6), the
time may be extended if the district court finds upon motion that a party did not timely receive notice of the entry of the judgment
or order, and that no party would be prejudiced by an extension.

(e)

Fed.R.App.P.4(c): If an inmate confined to an institution files a notice of appeal in either a civil case or a criminal case, the notice
of appeal is timely if it is deposited in the institution’s internal mail system on or before the last day for filing. Timely filing may
be shown by a declaration in compliance with 28 U.S.C. Section 1746 or a notarized statement, either of which must set forth the
date of deposit and state that first-class postage has been prepaid.

3.

Format of the notice of appeal: Form 1, Appendix of Forms to the Federal Rules of Appellate Procedure, is a suitable format. See also
Fed.R.App.P. 3(c). A pro se notice of appeal must be signed by the appellant.

4.

Effect of a notice of appeal: A district court loses jurisdiction (authority) to act after the filing of a timely notice of appeal, except for actions
in aid of appellate jurisdiction or to rule on a timely motion of the type specified in Fed.R.App.P. 4(a)(4).

-2 -

Case 5:19-cv-00533-MMH-PRL Documents Filed 10/23/19 Page 1 of 5 Page ID 32

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
ANTWAN R. CRAY,
Petitioner,
v.

Case No. 5:19-cv-533-J-34PRL

WARDEN, FCC COLEMAN - MEDIUM,
Respondent.

ORDER DISMISSING CASE
Petitioner Antwan Cray, an inmate of the Federal penal system, initiated this action
on October 1,2019,1 by filing a pro se Petition for Writ of Habeas Corpus under 28 U.S.C.
§ 2241 (Petition; Doc. 1), with a supporting memorandum (Memorandum; Doc. 2), in the
United States District Court for the Middle District of Florida, Jacksonville Division. On
October 17, 2019, Cray’s Petition was transferred to this Court. Doc. 3. The Petition is
before the Court for preliminary review pursuant to the Rules Governing Section 2254
Cases in the United States District Courts (also applicable to petitions brought under 28
U.S.C. § 2241). Rule 4 requires the Court to “promptly examine” a petition, and “[i]f it
plainly appears from the petition and any attached exhibits that the petitioner is not entitled
to relief in the district court, the judge must dismiss the petition.” For the reasons
discussed below, the Petition is due to be dismissed because the Court lacks subject
matter jurisdiction.

1

See Houston v. Lack. 487 U.S. 266, 276 (1988) (mailbox rule).

Case 5:19-cv-00533-MMH-PRL Document 8 Filed 10/23/19 Page 2 of 5 PagelD 33

Background
Cray is a federal inmate currently incarcerated at Coleman Medium Federal
Correctional Institution within this district and division. In 2011, following a bench trial,
the district court found Cray guilty of possession of a firearm by a convicted felon.
(Criminal Docket 31) United States v. Antwan R. Cray. 3:10-cr-204-J-34MCR (M.D. Fla.).
The district court sentenced Cray to a term of incarceration of 180 months in prison. (C.R.
Doc. 48). Cray appealed, and the Eleventh Circuit Court of Appeal per curiam affirmed
Cray’s conviction and sentence with a written opinion. (C.R. Doc. 59).
On October 10, 2013, Cray filed a pro se motion to vacate sentence pursuant to
28 U.S.C. § 2255 and a motion to amend that alleged: (1) trial counsel was ineffective
for coercing him into a stipulated-facts bench trial; (2) trial counsel was ineffective for not
arguing that Cray’s juvenile convictions in adult court did not count as predicate offenses
under the Armed Career Criminal Act (ACCA); and (3) Cray’s prior convictions for the sale
of cocaine did not meet the ACCA’s definition of the term “serious drug offense.” (2255
Docket 1; 6) Antwan R. Cray v. United States of America, 3:13-cv-1246-34MCR (M.D.
Fla.). The district court denied the § 2255 motion on the merits on October 20, 2016.
(2255 Doc. 19; C.R. Doc. 63).
In 2019, Cray filed the instant Petition, arguing that his Fifth and Sixth Amendment
rights were violated where a jury allegedly did not find several elements of the offense
beyond a reasonable doubt. Petition at 6. In his Memorandum, Cray elaborates by stating
that he is actually innocent and is serving an unconstitutional sentence in light of the
United States Supreme Court’s decision in Rehaif v. United States. 139 S.Ct. 2191
(2019). Memorandum at 2-3. According to Cray, the Rehaif decision requires the
2

Case 5:19-cv-00533-MMH-PRL Document 8 Filed 10/23/19 Page 3 of 5 PagelD 34

government to prove mens rea as to each element of his offense, but that was not done
in his criminal case and the government provided improper jury instructions that did not
use the term “knowingly” as to each element. Jjd. at 2.
Discussion
Typically, collateral attacks on the validity of a federal conviction or sentence must
be brought under 28 U.S.C. § 2255. Sawyer v. Holder. 326 F.3d 1363, 1365 (11th Cir.
2003). Challenges to the execution of a sentence, rather than the validity of the sentence
itself, are properly brought under 28 U.S.C. § 2241. Antonelli v. Warden. U.S.P. Atlanta.
542 F.3d 1348, 1352 (11th Cir. 2008). The claims raised in the instant Petition do not
address the execution of Cray’s sentence, but its legality, as he contends that he was
unconstitutionally convicted and sentenced. Therefore, § 2255, not § 2241, is the
appropriate statutory vehicle for Cray’s claims. Because Cray has already filed and
prosecuted a § 2255 motion attacking his conviction, which was denied on the merits
before pursuing the instant § 2255 motion to vacate, he must obtain authorization from
the United States Court of Appeals for the Eleventh Circuit to file a second or successive
motion. See 28 U.S.C. § 2244(b)(3)(A). Cray did not do this, and the Court cannot review
his claims under § 2255 without such authorization. See, e.q., Benitez v. Warden. FCI
Miami, 564 Fed. Appx. 497, 499 (11th Cir. 2014) (affirming dismissal of § 2241 petition
alleging an illegal indictment, improper jury instructions, and prosecutorial misconduct).
To the extent Cray relies on McQuiqqin v. Perkins. 569 U.S. 383 (2013) for the proposition
that he must file claims of actual innocence via § 2241, McQuiqqin does not support this
legal argument. The United States Supreme Court in McQuiqqin held only that a claim of
actual innocence can overcome the one-year statute of limitations for a state prisoner’s
3

Case 5:19-cv-00533-MMH-PRL Document 8 Filed 10/23/19 Page 4 of 5 PagelD 35

initial petition for writ of habeas corpus, id, at 1928. As such, McQuiaain does not entitle
Cray to challenge his conviction and sentences through a § 2241 petition.
Analyzing the Petition under § 2255(e), the “savings clause,” which permits a
federal prisoner to file a petition pursuant to § 2241 if a § 2255 motion “is inadequate or
ineffective to test the legality of his detention,” the Court finds that it is without jurisdiction
to review the merits of his claims. 28 U.S.C. § 2255(e). The savings clause imposes a
subject matter jurisdictional limit on petitions filed pursuant to § 2241. Williams v. Warden
713 F.3d 1332, 1338 (11th Cir. 2013). In explaining the meaning of the phrase
“inadequate or ineffective,” the Eleventh Circuit has explained that a motion under § 2255
“is inadequate or ineffective to test the legality of a prisoner’s detention only when it
cannot remedy a particular kind of claim.” McCarthan v. Dir. Of Goodwill IndustriesSuncoast, Inc.. 851 F.3d 1076, 1099 (11th Cir. 2017). Here, Cray’s claim concerning jury
instructions and the principles later accepted by the Supreme Court in Rehaif were
capable of adjudication in his § 2255 proceedings. See Benitez, 564 F. App’x at 499.
Moreover, Rehaif did not announce a new rule of constitutional law such that it would
apply retroactively on collateral review. See In re Palacios, 931 F.3d 1314, 1315 (11th
Cir. 2019) (denying application to file successive 2255 raising Rehaif claims because
Rehaif did not announce a new rule of constitutional law and the decision is not retroactive
in collateral proceedings). Therefore, the savings clause does not apply. See McCarthan
851 F.3d at 1099. Accordingly, the Petition is due to be dismissed for lack of jurisdiction.
ORDERED:

1.

Cray’s Petition (Doc. 1) is DISMISSED for lack of jurisdiction and this

case is DISMISSED with prejudice.
4

Case 5:19-cv-00533-MMH-PRL Documents Filed 10/23/19 Page 5 of 5 PagelD 36

2.

The Clerk shall enter judgment dismissing this case with prejudice, close

this case, and terminate any pending motions.
DONE AND ORDERED in chambers, this 22nd day of October, 2019.

United States District Judge

Jax - 8

c:
Antwan R. Cray #53343018

5

